Proskauer»

Proskauer Rose LLP Eleven Times Square New York, NY 10036-8299

January 7, 2021
By eFile
Scott S. Harris
Clerk of Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543

Russell L. Hirschhorn
Member of the Firm
d 212.969.3286
f 212.969.2900
rhirschhorn@proskauer.com
www.proskauer.com

Re: Francesca Allen, et al. v. Wells Fargo & Company, et al., No. 20-866
Dear Mr. Harris:
On behalf of Respondents, I write pursuant to Supreme Court Rule 30.4 to request a
30-day extension of time to file a response to the petition for a writ of certiorari in the abovecaptioned matter.
The response is currently due January 29, 2021. The requested extension would move
the due date to March 1, 2021. I respectfully submit that the extension is necessary to provide
my team with sufficient time to respond to the petition while also meeting our obligations in
other matters that pre-date the filing of the petition. I have reached out to counsel for Petitioners,
and he does not object to the requested extension.
Thank you for your consideration.

Sincerely,

Russell L. Hirschhorn
cc: Matthew W.H. Wessler, Counsel of Record for Petitioners

Beijing | Boca Raton | Boston | Chicago | Hong Kong | London | Los Angeles | New Orleans | New York | Newark | Paris | São Paulo | Washington, DC

